           Evaluation Report



The Social Security Administration’s
 Plan to Reduce Improper Payments
  Under Executive Order 13520, as
       Reported in March 2013




      A-15-13-13105 | September 2013
MEMORANDUM


Date:      September 30, 2013                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Plan to Reduce Improper Payments Under Executive Order
           13520, as Reported in March 2013 (A-15-13-13105)

           The attached final report presents the results of our review. Our objectives were to review the
           Social Security Administration Accountable Official’s Annual Report to the Office of the
           Inspector General, as required by Executive Order 13520, Reducing Improper Payments, and
           determine whether the (1) figures presented were accurate and (2) Agency complied with all
           requirements of the Executive Order.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Plan to Reduce Improper
Payments Under Executive Order 13520, as Reported in
March 2013
A-15-13-13105
September 2013                                                               Office of Audit Report Summary

Objectives                                   Our Findings

To review the Social Security                During our review, we noted the Agency generally presented all
Administration (SSA) Accountable             information required for Executive Order 13520 in its Annual
Official’s Annual Report to the Office       Report.
of the Inspector General, as required
by Executive Order 13520, Reducing           However, the Agency did not report all required information
Improper Payments, and determine             describing corrective actions for the Title XVI Supplemental
whether the (1) figures presented were       Security Income (SSI) program or explain the Title II Old-Age,
accurate and (2) Agency complied with        Survivors and Disability Insurance (OASDI) and SSI programs’
all requirements of the Executive            performance in meeting its reduction targets. We also noted two
Order.                                       immaterial instances of figures that were inaccurate based on the
                                             supporting documentation.
Background
                                             The Agency has continued reporting the same corrective actions for
On November 20, 2009, the President          SSI in the past three reporting cycles and has not reported any new
signed Executive Order 13520. The            initiatives that prevent and identify improper payments.
Executive Order provides, in part, that,
when the Federal Government makes            Our Recommendations
payments to individuals and
businesses, such as program                  The Agency should continue to improve its quality review process
beneficiaries, grantees, or contractors,     to ensure it reports all information required by the Executive Order
or on behalf of program beneficiaries,       and properly states figures based on supporting documentation.
it must make every effort to confirm
                                             To ensure the prevention, collection, and detection of improper
the right recipient is receiving the right
                                             payments, SSA should continue efforts to address improper
payment. The purpose of the
                                             payments and evaluate the SSI and OASDI programs to identify
Executive Order is to reduce improper
                                             additional improvements. Continuous efforts are needed to ensure
payments by intensifying efforts to
                                             improper payments are detected timely.
eliminate payment error, waste, fraud,
and abuse in major Federal
Government-administered programs,
while continuing to ensure that Federal
programs serve and provide access to
their intended beneficiaries.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
     High-Priority Programs ..............................................................................................................2
     Improper Payments ....................................................................................................................3
Results of Review ............................................................................................................................3
     Requirements of Executive Order ..............................................................................................4
           Methodology for Identifying and Measuring Improper Payments ......................................4
           Plan for Meeting the Reduction Targets for Improper Payments ........................................5
           Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access .........................9
           Quarterly High-Dollar Report to the OIG and CIGIE .........................................................9
           Website Submission ...........................................................................................................10
           Risk and Oversight Assessed by the OIG ..........................................................................10
     Accuracy of Reported Information ..........................................................................................11
Conclusions ....................................................................................................................................11
Recommendations ..........................................................................................................................12
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Defining Erroneous Payments ............................................................................ B-1
Appendix C – Discrepancies in the Annual Report ................................................................... C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)
ABBREVIATIONS
AFI                 Access to Financial Institutions

AFR                 Agency Financial Report

CIGIE               Council of Inspectors General on Integrity and Efficiency

DI                  Disability Insurance

FY                  Fiscal Year

GAO                 Government Accountability Office

IPIA                Improper Payments Information Act of 2002

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

OMB                 Office of Management and Budget

OQP                 Office of Quality Performance

PAR                 Performance and Accountability Report

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSITWR              Supplemental Security Income Telephone Wage Reporting System




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)
OBJECTIVES
Our objectives were to review the Social Security Administration (SSA) Accountable Official’s
Annual Report to the Office of the Inspector General (OIG), as required by Executive
Order 13520, Reducing Improper Payments, and determine whether the (1) figures presented
were accurate and (2) Agency complied with all requirements of the Executive Order.

BACKGROUND
On November 20, 2009, the President signed Executive Order 13520. 1 The Executive Order
provides that, “[w]hen the Federal Government makes payments to individuals and businesses,
[such] as program beneficiaries, grantees, or contractors, or on behalf of program beneficiaries, it
must make every effort to confirm that the right recipient is receiving the . . . [correct]
payment . . .” 2 The purpose of the Executive Order is to reduce improper payments by
intensifying efforts to eliminate payment error, waste, fraud, and abuse in major Federal
Government-administered programs, while continuing to ensure that Federal programs serve and
provide access to their intended beneficiaries.

As part of the Executive Order, 3 each agency operating a high-priority program identified by the
Office of Management and Budget (OMB) is required to provide, within 180 days of the Order,
the agency’s OIG a report containing the

1. methodology for identifying and measuring improper payments by the agency’s high-priority
   programs;

2. plans, together with supporting analysis, for meeting the reduction targets for improper
   payments in the agency’s high-priority programs; and

3. plans, along with supporting analysis, for ensuring that initiatives undertaken pursuant to the
   Order do not unduly burden program access and participation by eligible beneficiaries.

At least once every quarter, beginning 180 days after the date of the Order, each agency head is
also required to submit to the agency’s OIG and the Council of Inspectors General on Integrity
and Efficiency (CIGIE), and make available to the public, a report on any high-dollar improper
payments identified by the agency, subject to Federal privacy policies and to the extent permitted
by law. 4 Agencies are also required to place a prominently displayed link, on their Internet




1
    Reducing Improper Payments, 74 Fed. Reg. 62201 (November 25, 2009).
2
    Id. at § 1.
3
    74 Fed. Reg. 62202, § 3(b).
4
    74 Fed. Reg. 62203, § 3(f).



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)              1
homepages, to Internet-based resources 5 for addressing improper payments. 6 The information
about such resources must be published on the Internet by the Secretary of the Treasury in
coordination with the Attorney General and the Director of OMB. 7

High-Priority Programs
OMB guidance specifies how it will determine agency high-priority programs, as required under
section 2(a)(i) of Executive Order 13520. 8 Each year, the Director of OMB determines high-
priority programs based on improper payment reporting in agencies’ annual Performance and
Accountability Reports (PAR) or Agency Financial Reports (AFR). 9 The Director of OMB
classifies a program as high-priority if the program meets the following criteria. 10

1. It is susceptible to significant improper payments, as defined by legislation and OMB
   implementing guidance and either:

          •   Measured and reported errors above the threshold 11 determined by OMB, and contributed
              to the majority of improper payments in the most recent reporting year; or

          •   Has not reported an improper payment dollar amount in the most recent reporting year,
              but has in the past reported errors above the threshold determined by OMB and not
              received relief from OMB from measuring and reporting; or

          •   Has not yet reported an overall program improper payment dollar amount, but the
              aggregate of the measured program’s component errors are above the threshold.




5
 Such resources include information about improper payments under high-priority programs and a central Internet-
based method for collecting information from the public about suspected incidents of fraud, waste, and abuse by an
entity receiving Federal funds that have led or may lead to improper payments by the Federal Government (see
74 Fed. Reg. 62201 to 62202, §§ 2(b) and 2(c).
6
    74 Fed. Reg. 62202, § 2(d).
7
    74 Fed. Reg. 62201 to 62202, § 2(b).
8
 OMB, M-10-13, Issuance of Part III to OMB Circular A-123, Appendix C, and Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Part III, Requirements for Implementing Executive Order 13520:
Reducing Improper Payments, § (A)(1)(e), pp. 5-6, (March 22, 2010).
9
    Id.
10
     Id.
11
  The Fiscal Year (FY) 2010 threshold was $750 million in improper payments as reported in the PAR or AFR.
OMB will annually re-evaluate the high-priority program list after agencies publish annual improper payment
information in the PAR or AFR. Beginning with FY 2010 reporting, and for all subsequent years, OMB will notify
agencies of the new threshold and if any programs shall be added or removed (based on reporting errors above or
below the new threshold) from the high-priority list within 30 calendar days of the submission and publication of
agency PAR or AFR as required by OMB. Id.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                              2
2. For those programs with error amounts close to the threshold, but with error rates below
   2 percent of program outlays, agencies may work with OMB to determine whether the
   program can be exempt from fulfilling certain requirements of the Executive Order.

OMB classified SSA’s Title II Old-Age, Survivors, and Disability Insurance (OASDI) and Title
XVI Supplemental Security Income (SSI) programs as high-priority.

Improper Payments
Each year, SSA reports payment accuracy rates for the OASDI and SSI programs based on its
stewardship reviews. The Agency uses the reviews as the basic measure to report on the
accuracy of benefit payments. SSA reports over- and underpayments from its stewardship
reviews of nonmedical aspects for the Retirement and Survivors Insurance, Disability Insurance
(DI), and SSI programs. In accordance with OMB’s guidelines 12 implementing the provisions of
the Improper Payments Information Act of 2002 (IPIA), 13 an improper payment subject to
reporting under IPIA is any payment that should not have been made or that was made in an
incorrect amount under statutory, contractual, administrative, or other legally applicable
guidance. Stewardship review findings provide the basis for reports to monitoring authorities.
The Agency also uses data from these reviews in corrective action planning and monitoring
performance, as required by the Government Performance and Results Act of 1993. 14

RESULTS OF REVIEW
Our review determined that the Agency (1) generally met the requirements of Executive
Order 13520 and (2) accurately reported improper payment information except for two
immaterial instances in which figures were inaccurate based on the supporting documentation. 15




12
 OMB, M-03-13, Implementation Guidance for the Improper Payments Information Act of 2002, Pub. L.
No. 107-300, p. 1 (May 21, 2003).
13
     Pub. L. No. 107-300, § 2, 116 Stat. 2350 (2002).
14
     Pub. L. No. 103-62. § 4, 107 Stat. 285, 286-289 (1993).
15
     See Appendix A for the scope and methodology.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)             3
Requirements of Executive Order
In March 2010, OMB issued guidance 16 for implementing the requirements of the Executive
Order. We reviewed the SSA Accountable Official’s 17 March 15, 2013 Fourth Annual Report 18
to ensure the Agency addressed all requirements of the Executive Order.

Methodology for Identifying and Measuring Improper Payments
OMB guidance requires that an agency’s Annual Report describe the agency’s program error-
measurement methodology, plans for meeting improper payment targets, and plans to ensure
program access and participation by eligible beneficiaries. 19 The first requirement of the OMB
guidance noted above indicates that the report should also include sample size, and related
calculations; results of annual measurements; and other applicable measurement-related
information as applicable. 20

In its Annual Report, SSA described the stewardship reviews it used to measure the accuracy of
payments to beneficiaries in current payment status. Each FY, the Office of Quality
Performance (OQP) conducts stewardship reviews of the OASDI and SSI payments issued in
that FY. OQP based the stewardship reviews on a monthly sample of OASDI and SSI recipients
in current pay status. In FY 2011, OQP reviewed about 1,760 OASDI and 4,252 SSI cases to
determine the payment accuracy rates. If OQP detected an error, it determined whether the
payment error met the definition of improper (see Appendix B). If OQP considered a program
payment unavoidable, 21 it was not included in the projection of improper payment dollars. In
addition, SSA excludes payment errors based on medical eligibility if the beneficiary is found
medically ineligible in cases where retroactive ineligibility is legally prohibited.

SSA’s Annual Report presented the payment accuracy results from the stewardship reviews
through tables titled, Improper Payments Experience FY 2009 – FY 2011. This information,
along with the description of the Agency’s methodology for identifying and measuring improper
payments for high-priority programs, satisfied the first OMB reporting requirement enumerated
above.


16
     OMB, Circular A-123, supra.
17
  An accountable official is one who holds an existing Senate-confirmed position that will be accountable for
meeting the targets established under Executive Order 13520, Reducing Improper Payments. 74 Fed. Reg. 62202, §
3(a).
18
  OMB guidance requires that accountable officials for those agencies that are identified as having at least one
high-priority program must provide an annual report to their Inspectors General in response to Section 3(b) of the
Executive Order. OMB Circular A-123, supra at § C(2)(b), p. 16.
19
     Id., § C(2)(b) p. 16.
20
     Id. at § C(2)(c)1, p. 17.
21
  Unavoidable payments are payments that result from legal or policy requirements. SSA does not consider these
payments erroneous. (See Appendix B of this report.)



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                              4
Plan for Meeting the Reduction Targets for Improper Payments
The second OMB requirement states that the Annual Report must contain the agency’s plan and
supporting analysis for meeting the reduction targets for improper payments. 22 This requirement
includes reporting

1. the root causes of errors in the program;

2. the corrective actions being implemented and their full implementation date;

3. the types of errors the corrective actions will address and their expected impact;

4. the anticipated costs of the corrective actions and their likely return on investment; and

5. an explanation of the program’s performance in meeting its reduction targets.

In addition to the reduction targets, agencies with high-priority programs are required to establish
semiannual or supplemental targets for reducing improper payments. 23 OMB guidance 24 states
that supplemental targets should focus on higher-risk areas within the high-priority program and
report on root causes of errors that agencies can resolve through corrective actions.

SSA did not provide all of the required information for the SSI corrective actions reported. In
addition, the Agency did not provide an explanation of the OASDI and SSI programs’
performance in meeting its reduction targets.

OASDI

On April 22, 2010, OMB confirmed that SSA was not required to establish the additional
supplemental measures and target for the OASDI program because SSA’s payment accuracy rate
met the payment error threshold of less than 2 percent of program outlays. However, SSA
fulfilled other transparency-related reporting by describing the root causes of over- and
underpayments.

SSA’s Annual Report stated the root causes of OASDI overpayments were substantial gainful
activity, computations, and earnings history. The root causes of OASDI underpayments were
computations, earnings history, and workers’ compensation. To mitigate these improper
payments, SSA identified various areas it would analyze to potentially reduce payment errors,
including 25



22
     OMB Circular A-123, supra at § (C)(2)(c)2, p. 17.
23
     74 Fed. Reg. 62201, § 2(a)(ii).
24
     OMB Circular A-123, supra at § (B)(2)(e), p. 11.
25
  SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, March 2013,
pp. 7 and 8.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                      5
1. completing work continuing disability reviews that evaluate a beneficiary’s work activity to
   determine whether the work represents substantial gainful activity;

2. piloting the use of a statistical predictive model to help identify beneficiaries who are at risk
   of receiving high earnings-related overpayments; and

3. requesting reauthorization of the demonstration authority to allow testing of important
   improvements in the DI return to work rules.

While not required to establish supplemental measures and targets for the OASDI program, SSA
provided the required annual reduction targets for the over- and underpayments. SSA did not
meet its annual reduction targets for OASDI overpayments for 2 or more consecutive years. 26
The Agency did not explain why the OASDI program did not meet the targeted overpayment
error rate reductions. However, the Executive Order’s implementation guidance requires that
agencies explain the program's performance in meeting its annual reduction targets. 27 The
Agency provided the following additional information.

           [OMB] determines the payment accuracy targets for [OASDI] and SSI overpayments
           and underpayments. For several years, our separate [OASDI] targets have been
           0.2 percent for overpayments and underpayments. For [FY] 2011, for us to make any
           further improvements upon our 99.7 percent overpayment accuracy rate, it requires an
           investment of about $717 million for each tenth of a percentage point in [OASDI]
           program outlays. Given our limited resources, we must balance program integrity
           work with other agency priorities.

SSI

SSA’s Annual Report described the root causes of SSI over- and underpayments. 28 The major
causes of SSI overpayments were excess financial accounts, wages, and other real property. The
main causes of SSI underpayments were in-kind support and maintenance, living arrangements,
and wages. The corrective actions addressed such high-error categories as excess financial
accounts, wages, and non-disability factors. These corrective actions included (1) conducting
SSI non-disability redeterminations, (2) using the access to financial institutions (AFI) process,
and (3) using the SSI Telephone Wage Reporting System (SSITWR).

         SSI Non-Disability Redeterminations are periodic reviews of SSI non-disability
eligibility factors, such as income, resources, and living arrangements. SSA conducts
redeterminations to ensure it pays SSI payments in the correct amount and only to eligible
individuals. The Agency completed approximately 2.62 million redeterminations in FY 2012,


26
   SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, March 2013,
p. 4.
27
     OMB, A-123, supra at § (C)(2)(c)2.v, p. 17.
28
   SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, March 2013,
p. 11.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                       6
and its goal is to complete 2.62 million by the end of FY 2013. The Agency did not report the
expected impact or anticipated costs for this corrective action, as required by the OMB guidance
for the Executive Order. 29 The Agency stated that the number of redeterminations it performs
depends on budgetary resources and field office workload considerations.

        AFI is an electronic process that verifies bank account balances with financial institutions
to determine SSI eligibility. AFI also detects undisclosed accounts by searching for accounts
located geographically near the SSI applicant or beneficiary. The Agency estimated
$365 million in lifetime savings, which is a significant change in the estimate from the prior
year’s Annual Report. In last year’s Annual Report, the Agency projected that once fully
implemented, the AFI program will save $900 million in lifetime program savings each year.
During a discussion at the Agency's monthly Improper Payments Reduction Planning Committee
meeting, the Agency stated program savings were significantly reduced because its budget
constraints would not support full implementation. Therefore, the Agency estimated savings for
an increased tolerance level and a reduction in the number of undisclosed financial account
searches.

OMB guidance requires that agency plans and analyses for meeting improper payment reduction
targets include corrective actions that are being implemented and their full implementation
date. 30 However, the Agency did not report the full implementation date, as required. 31 SSA
stated it changed the full implementation date to an indefinite date because of limited resources
and the necessity to balance other workloads; however, the Agency did not clearly indicate this
change in the Annual Report.

    SSITWR is a dedicated telephone number that allows individuals to report their wages via a
voice-recognition system. Stewardship data indicated that wage-related overpayment dollars
resulted from fluctuating income and failure to timely report an increase in wages. To simplify
the reporting process, SSA created SSITWR. The Agency has made the following advancements
with the SSITWR system.

       •   In May 2009, SSA required that field offices recruit all SSI recipients and representative
           payees, as well as household members who influence the SSI recipients’ payments, to
           report their wages using SSITWR.

       •   In September 2012, SSA expanded its representative payee outreach and mailed more
           than 32,000 recruitment notices to representative payees of working SSI recipients.

       •   In December 2012, SSA provided a smart phone application to SSI recipients serviced by
           50 selected field offices.



29
     OMB Circular A-123, supra at § (C)(2)(c)2.iii and iv, p. 17.
30
     OMB Circular A-123, supra at § (C)(2)(c)2.ii, p. 17.
31
     OMB Circular A-123, supra at § (C)(2)(c)2.ii, p. 17.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                 7
SSA’s goal was to increase the number of monthly reporters participating in the SSITWR
initiative to 38,510 in the month of September 2013. As of February 2013, SSA reported
42,121 unique wage-reporting participants. However, the Agency did not report the program’s
anticipated costs or return on investment, as required. 32

The Agency stated it had three corrective actions in the Annual Report: conduct SSI non-
disability redeterminations, use the AFI process, and use the SSITWR system. SSA has reported
the same corrective actions for SSI in the last three Annual Reports, but there has not been any
significant improvement in its improper payment error rates. The Agency has not provided any
additional initiatives to improve the prevention, collection, and detection of improper payments.
SSA stated, “While we have no new corrective actions to present at this time, we are continually
enhancing our existing corrective actions, as reflected in our past three Accountable Official’s
Reports.”

SSA did not meet its reduction targets for SSI underpayments for 2 or more consecutive years
and for overpayments in FY 2011. 33 The Agency did not provide an explanation for not meeting
the targeted error rates for overpayments and underpayments. OMB guidance requires an
explanation of the program’s performance in meeting its reduction targets. 34 The Agency
provided the following additional information.

           For SSI, we have not met the OMB-established goals for overpayment and
           underpayment accuracy. In FY 2011, our overpayment error rate declined from
           6.65 percent in FY 2010 to 7.34 percent, and we did not meet the target error rate of
           6.7 percent. For SSI underpayments, we improved upon our FY 2010 underpayment
           error rate of 2.44 percent to 1.83 percent, but again, we did not reach the OMB-
           established goal of 1.2 percent. For the SSI program, each tenth of a percentage point
           requires prevention of about $52 million in further improvements in payment
           accuracy. Similar to [OASDI], our reduced funding causes us to share resources with
           our other critical workloads.

The Agency also developed supplemental measures and targets for the SSI program, as
collectively required by the OMB guidance and the Executive Order, 35 to address overpayments
due to a change that affects payment amount or eligibility and overpayments due to unreported
wages. The supplemental measures and targets included (1) SSI non-disability redeterminations
and (2) SSITWR. For SSI non-disability redeterminations, SSA’s supplemental target was to
conduct 2.6 million redeterminations in FYs 2013 and 2014.




32
     OMB Circular A-123, supra at § (C)(2)(c)2.iv, p. 17.
33
   SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, March 2013,
p. 10.
34
     OMB, Circular A-123, supra at § (C)(2)(c)2.v, p. 17.
35
     OMB Circular A-123, supra at § (B)(2), p. 10, and 74 Fed. Reg. 62201, § 2(a)(ii).



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                       8
Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access
OMB’s final requirement is that the Annual Report contain an agency plan, together with
supporting analysis, for ensuring initiatives undertaken to implement the Executive Order do not
unduly burden program access and participation by eligible beneficiaries. 36 OMB plans to
provide further guidance for this requirement; therefore, SSA did not include this requirement in
its Annual Report. Once available, we will review the applicable guidance and determine
whether future Agency Reports contain the required information.

Quarterly High-Dollar Report to the OIG and CIGIE
In addition to the Annual Report to the OIG, the Executive Order requires that each agency with
programs susceptible to significant improper payments under IPIA submit to the OIG and
CIGIE, and make available to the public, a report on any high-dollar improper payments
identified by the agency. 37 The applicable OMB guidance requires such reporting on
overpayments but does not reference underpayments. 38 According to OMB guidance, 39 a
high-dollar overpayment is any overpayment that exceeds 50 percent of the correct amount of the
intended payment where the

1. total payment to an individual exceeds $5,000 as a single payment or in cumulative payments
   for the quarter or

2. payment to an entity 40 exceeds $25,000 as a single payment or in cumulative payments for the
   quarter.

SSA submitted quarterly high-dollar reports to the OIG and CIGIE for the reporting period
started June 2010 and each subsequent quarter thereafter. We issued a report in
December 2012 41 covering the high-dollar reporting periods December 2011 and March, June,
and September 2012. We will issue a report on our review of the Agency’s high-dollar reports
for FY 2013 under a separate cover.




36
     OMB Circular A-123, supra at § (C)(2)(c)3, p. 17.
37
     74 Fed. Reg., supra note 1 62203, § 3(f).
38
     OMB, Circular A-123, supra at § (C)(3), p. 17.
39
     OMB Circular A-123, supra at § (C)(3)(e), p. 18.
40
  As stated in OMB Circular A-123, supra at § (C)(5)(n), p. 22, an entity is a non-individual that owes an
outstanding improper payment. The term entity excludes an individual acting in either a personal or commercial
capacity (that is, a sole proprietor) or Federal, State, and local government agencies.
41
  SSA OIG, The Social Security Administration’s Reporting of High-Dollar Overpayments Under Executive Order
13520 in FY 2012 (A-15-13-13068), December 2012.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                          9
Website Submission
According to the Executive Order, 42 agencies are required to submit certain information, subject
to Federal privacy policies and, to the extent legally permitted, to the improper payments
Website. 43 OMB Guidance implementing Section 2 (b) of the Executive Order 44 requires that
agencies submit the following information for the improper payments Website.

1. names of the accountable officials;

2. current and historical rates and amounts of improper payments, including, where known and
   appropriate, causes of the improper payments;

3. current and historical rates and amounts of recovery of improper payments, where
   appropriate (or, where improper payments are identified solely on the basis of a sample,
   recovery rates and amounts estimated on the basis of the applicable sample);

4. targets for reducing as well as recovering improper payments, where appropriate; and

5. entities that have received the greatest amount of outstanding improper payments (or, where
   improper payments are identified solely based on a sample, the entities that have received the
   greatest amount of outstanding improper payments in the applicable sample).

In addition to providing the above information to OMB’s improper payments Website, SSA
created a Website that provides additional details on improper payments. 45 Our review of the
Website confirmed its information accurately reflected the data in SSA’s Annual Report.

Risk and Oversight Assessed by the OIG
To assess the level of risk for the SSI and OASDI programs, we reviewed the Government
Accountability Office’s (GAO) 46 High-Risk Series reports to Congress. In February 2013, GAO
provided an updated report that identified Federal disability programs as high-risk areas. 47 This
included SSA’s SSI and DI programs.

We continue overseeing the SSI and OASDI programs through various audits and evaluations.
For the period April 1, 2012 through March 31, 2013, we issued 111 reports on a variety of



42
     See 74 Fed. Reg., supra at 62201 to 62202, § 2(b).
43
     The improper payments Website is located at http://www.paymentaccuracy.gov.
44
     OMB Circular A-123, supra § (C)(6)(s), pp. 23-24.
45
     http://www.ssa.gov/improperpayments.
46
 Effective July 7, 2004, GAO’s legal name was changed from the General Accounting Office to the Government
Accountability Office.
47
     GAO High-Risk Series, An Update (GAO-13-283), February 2013.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                      10
challenges that faced the Agency and identified over $875 million in questioned costs and
$3.12 billion in Federal funds that could be put to better use.

We are conducting an in-depth review of SSITWR to determine whether SSA’s SSITWR
process effectively received and processed wage reports as well as reduced improper payments.
We will complete this review in 2013. We will also continue monitoring SSA’s programs by
conducting and supervising comprehensive financial and performance audits and making
recommendations to maximize the effective operations of the Agency’s programs most
vulnerable to fraud and abuse.

Accuracy of Reported Information
SSA provided supporting documentation for all figures in the Annual Report; however, we noted
one error for monetary figures and one error for non-monetary figures for which the supporting
documentation did not accurately reflect the Report’s data. The discrepancies, however, were
not substantive to the overall report content (see list of discrepancies in Appendix C). We
informed SSA of these discrepancies, and the Agency corrected the amounts in the Annual
Report posted on its improper payments Website.

CONCLUSIONS
During our review, we noted the Agency generally presented all information required for
Executive Order 13520 in its Annual Report, except for the corrective actions for the SSI
program and explanations for OASDI and SSI programs’ performance in meeting its reduction
targets. We also noted two immaterial instances of figures that were inaccurate based on the
supporting documentation.

The Agency has continued reporting the same corrective actions for SSI in the past three
reporting cycles and has not reported any new initiatives that prevent and identify improper
payments.

At the conclusion of our evaluation, the Agency provided the following comments.

       We appreciate the OIG’s findings that we generally met the requirements of the
       Executive Order and accurately reported improper payment information in all but two
       instances. We will use the information contained in your report to continue our efforts
       to ensure prevention, collection, and detection of improper payments.

       We continue to evaluate the Supplemental Security Income (SSI) and Retirement and
       Survivors Disability Insurance (RSDI) programs to determine where we can make
       improvements to prevent improper payments. As you note in the report, for the past
       three Accountable Official reports, we identified SSI redeterminations and the Access
       to Financial Institutions (AFI) and SSI Telephone Wage Reporting (SSITWR) System
       initiatives as corrective actions. We are continually enhancing these corrective
       actions for the SSI program. SSI redeterminations are a proven, cost-effective method
       to identify payment errors. We continuously improve our SSI redetermination



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)          11
       statistical predictive model based upon analysis of the findings from prior years’
       results.

       The AFI initiative is available nationally, and we are further implementing this
       worthwhile effort. AFI addresses the primary cause of SSI improper payments,
       excess financial resources. In October 2013, in an effort to detect assets in
       undisclosed bank accounts, we are expanding the AFI initiative by lowering our liquid
       resource tolerance from $750 to $400.

       We have also made strides with SSITWR. In fiscal year 2013, we implemented the
       SSI Wage Reporting Smartphone Application, which allows SSI recipients to use their
       smart phones to report prior monthly gross wages. Wages, over the allowable limits,
       are the second highest reason for SSI overpayment error. We are also developing
       pilots for new initiatives to support program integrity as funding permits. If we
       determine they are successful and cost-effective, we intend to expand their use, and
       we will report on those initiatives in future reports.

RECOMMENDATIONS
The Agency should continue improving its quality review process to ensure it reports all
information required by the Executive Order and properly states figures based on supporting
documentation.

To ensure the prevention, collection, and detection of improper payments, SSA should continue
efforts to address improper payments and evaluate the SSI and OASDI programs to identify
additional improvements. Continuous efforts are needed to ensure improper payments are
detected timely.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)        12
                                      APPENDICES




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)
Appendix A – SCOPE AND METHODOLOGY
Our objectives were to review the Social Security Administration Accountable Official’s Annual
Report to the Office of the Inspector General (OIG), as required by Executive Order 13520,
Reducing Improper Payments, and determine whether the (1) figures presented were accurate
and (2) Agency complied with all requirements of the Executive Order. To accomplish our
objectives, we:

   •   Reviewed the Accountable Official’s Fourth Annual Report under Executive Order
       13520, Reducing Improper Payments, March 15, 2013.

   •   Reviewed applicable Federal laws.

   •   Reviewed applicable Office of Management and Budget guidance.

   •   Reviewed the Fiscal Year (FY) 2010 Stewardship Review Reports for the Old-Age,
       Survivors and Disability Insurance and Supplemental Security Income programs.

   •   Reviewed the FY 2011 Stewardship Review Reports for the Old-Age, Survivors and
       Disability Insurance and Supplemental Security Income programs.

   •   Reviewed the Improper Payments Information Act of 2002 section of the
       FY 2012 Performance and Accountability Report.

   •   Requested data from the Office of Quality Performance to support the figures presented
       in the Annual Report.

   •   Analyzed the source data to ensure the accuracy of all figures.

   •   Analyzed the narrative of the Annual Report to ensure compliance with requirements of
       the Executive Order.

We conducted our review from March through June 2013 in Baltimore, Maryland. We
conducted our review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspection and Evaluation.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)     A-1
   Appendix B – DEFINING ERRONEOUS PAYMENTS
   The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting
   status, reasons for the payments, and their classification. There are two classifications.

          •   Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered “erroneous” and may
              still be subject to recovery.

          •   Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
              changes in administrative actions.

                                                      Current
   Types of Payments                    Program                             Reason for Overpayment/Underpayment                Classification
                                                       Status
Payments following a         DI 1 and SSI2        Not currently     When SSA is required by law to make payments during       Unavoidable
cessation of eligibility due                      reflected as an   the appeals process, these payments are not erroneous.
to a continuing disability                        error
review
Payments made under the SSI                       Reported as an    When due process requires that SSI payments continue,       Unavoidable
Goldberg-Kelly due-                               unavoidable       although the Agency has determined that a payment
process Supreme Court                             erroneous         reduction or termination is in order, such payments are not
decision                                          payment in the    erroneous.
                                                  APP 3




   1
       Disability Insurance (DI).
   2
       Supplemental Security Income (SSI).
   3
       Annual Performance Plan (APP).



   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                                             B-1
                                                             Current
   Types of Payments                   Program                                         Reason for Overpayment/Underpayment                            Classification
                                                              Status
Payments made                      SSI                   Reported as an       The law requires that SSI payments be made on the first                 Unavoidable
incorrectly because of                                   unavoidable          of the month based on projected income for that particular
program design                                           erroneous            month. Changes in the recipient’s status can occur during
                                                         payment in the       the month, which causes the recipient’s eligibility to
                                                         APP                  change. Because SSA cannot prevent the overpayment,
                                                                              this situation should not be reflected in the Agency’s
                                                                              erroneous payment rate.
Payments issued after              OASI, 4 DI, and       Not currently        Dollars released after death (either electronically or in the           Unavoidable
death                              SSI                   reflected as an      form of a paper check) that are reclaimed by the                        except for
                                                         error 5              Department of the Treasury or returned unendorsed                       fraud or
                                                                              should not be reflected in the Agency's erroneous payment               misuse
                                                                              rate. Conversely, payments made after death that are
                                                                              improperly cashed or withdrawn, and are subject to
                                                                              overpayment recovery, should be reported.
Non-receipt of payment             OASI, DI, and         Not currently        Duplicate payments issued in accordance with the                        Unavoidable
                                   SSI                   reflected as an      Robinson-Reif Court decision are unavoidable and should                 except for
                                                         error                not be reflected in the Agency's reports on erroneous                   fraud or
                                                                              payments. The only exception is duplicate payments                      misuse
                                                                              incorrectly sent to abusers.
Payments based on                  DI and SSI            Not currently        Payments are not erroneous if they are the result of a                  Should not be
medical eligibility                                      reflected as an      medical improvement review standard or a situation                      included in the
                                                         error                where the beneficiary would have been ineligible had the                erroneous
                                                                              law permitted retroactive ineligibility.                                payment
                                                                                                                                                      estimate


   4
       Old-Age and Survivors Insurance (OASI).
   5
       Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review protocol.



   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                                                                    B-2
                                                     Current
   Types of Payments             Program                                    Reason for Overpayment/Underpayment              Classification
                                                      Status
Payments made for Title      DI and OASI         Not currently      When program design requires that the Agency make        Unavoidable
II beneficiaries based on                        reflected as an    payments based on estimated earnings, these payments
earnings estimates                               error              should not be considered erroneous.
Undetected error             OASI, DI, and       Not currently      The Agency should not reflect undetected errors in its   Should not be
                             SSI                 reported as an     erroneous payment rate unless it has evidence that a     included in the
                                                 error              specific type of erroneous payment was made.             erroneous
                                                                                                                             payment
                                                                                                                             estimate
Duplicate payments to        Administrative      Not currently      Agency systems do not capture when the overpayment       Avoidable
attorneys, vendors, and      Expense             reported as an     occurs; however, this type of error does not meet the
employees                                        error              reporting threshold.




   SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                                           B-3
Appendix C – DISCREPANCIES IN THE ANNUAL REPORT
We reviewed the Social Security Administration (SSA) Accountable Official’s Annual Report
Executive Order 13520, Reducing Improper Payments, March 2013, to ensure the information
reported was accurately stated. During our review, we noted the following discrepancies:

          Table C–1: Discrepancies in the SSA’s Annual Report Issued in March 2013 1
          Location in the Annual Report                           Discrepancy Explanation 2
      Page 12 – Chart: Redeterminations                  SSA reported that it completed 2,448,095
                                                         redeterminations in Fiscal Year (FY) 2011.
                                                         However, in the March 2012 Annual Report,
                                                         the Agency reported 2,456,830. The March
                                                         2012 Annual Report reflected the total as of
                                                         September 30, and the March 2013 Annual
                                                         Report reflected the total as September 23.

                                                         We verified that the Agency updated the
                                                         FY 2011 redeterminations on its Improper
                                                         Payments Website. 3
      Page 17 – Table: FY 2013 SSI –                     SSA reported the error amount for
      Supplemental Measures and Targets                  overpayments due to unreported wages as
                                                         $589 million in FY 2011. Supporting
                                                         documentation showed $540 million.

                                                         We verified that the Agency updated the
                                                         error amount to $540 million on its Improper
                                                         Payments Website. 4




1
    SSA, Accountable Official’s Annual Report Executive Order 13520, Reducing Improper Payments, March 2013.
2
  We informed SSA of these discrepancies during our review and the Agency stated that it would correct the errors
in the March 2013 Annual Report. SSA corrected the amounts on the Agency’s Improper Payments Website.
3
    http://www.ssa.gov/improperpayments.
4
    Id.



SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)                        C-1
Appendix D – MAJOR CONTRIBUTORS
Victoria Vetter, Director

Judi Kammer, Audit Manager

Kelly Stankus, Senior Auditor

Yvasne Maiga, Senior Auditor




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2013 (A-15-13-13105)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
